                                                    L nited State, Department of State
                                                    and tile' Broadcasting Board of Governors

                                                    Office of Inspector General

                                                      JAN 1 5 1010


Dear Me. Chairman:

In accordance with Section 232 of the William Wilberforce Trafficking Victims
Protection Reauthorization Act of2008 (TVPRA) P.L. 110-457, the Department of
State Office of Inspector General (OIG) is pleased to submit this summary of
activities and findings related to trafficking in persons fo r the period January I,
2009 to December 3 1,2009. During the year, O IG's four offices employed a
coordinated, cross-disciplinary, and global approach to the issue of trafficking in
persons. Information gathering by the Office of Inspections assisted the Middle
East Regional Office (MERO) and led to referral s for the Office of Investigations,
while reporting from MERO provided key findings for potential future audit and
investigative work. Summaries of each office' s 2009 activities and findi ngs
related to trafficking in persons are detailed below.

Middle East Regional Office

To address widespread concerns about trafficki ng in the Middle East region,
MERO is incorporating trafficking in persons objectives into all audits involving
Department of State (Department) contractors and subcontractors in Afghanistan,
Iraq, and Pakistan . In addition, OIG completed the survey phase and initiated the
aud it phase ofa regional review that will directly address the TVPRA mandate to
audit a sample of contracts under whi ch there is a heightened risk that a contractor
may engage, knowingly or unknowingly, in acts related to trafficking in persons
(Section 232, part b).



The Honorable
      Howard L. Berman, Chairman,
             Commi ttee on Foreign Relations,
                    Un ited States House of Representatives.
                                                       -2­

A performance audit of the Baghdad Embassy Security Force (BESF), provided
through a contract with the private security company, Triple Canopy, ' was the first
audit in which OIG specifically examined the risk of trafficking in persons through
document review, site visits, and interviews. 01 G found that the BE SF contract
does contain a clause on combating trafficking in persons as required by Federal
Acquisition Regulations (FAR 52.222-50). This clause states that contractors shall
not engage in any severe forms of trafficking in persons, procurement of
commercial sex acts, or use of forced labor. Through structured interviews with 84
randomly selected Peruvian and Ugandan BESF guards on recruitment, work and
living conditions, and compensation, the OIG team found no evidence that Triple
Canopy was recruiting or maintaining labor through the use of force, fraud, or
coercion. However, Triple Canopy's guard personnel were housed in unsafe
conditions in violation of the contract, several safety codes, and Department
regulations. In addition, the Department lacked a policy regarding the number of
consecutive days guards can work. Guards reported working as many as 30 days
without a break, which impacts alertness and undermines security.

Using lessons learned from the BESF audit, OIG is refining its techniques for a
forthcom ing regional report to be completed in 20 lO on contractor involvement in
trafficking in persons. In 2009, OlG completed the survey phase of this review,
which identified contracts in the MERO area of responsibility' susceptible to labor
and other forms of trafficking. In consultation with experts from the Office to
Monitor and Combat Trafficking in Persons, the Office of International Labor and
Corporate Social Responsibility, the Department of Labor's Bureau of
International Labor Affairs, and the International Labor Organization, OIG
analyzed Department contracting for unski lled labor in fields such as construction,
facility support, and hospitality OIG especially scrutinized firms that provide low­
wage labor for the fields li sted above, as well as firm s with documented
infractions in news articles, embassy cables, or prior audits and investigations.

To select sites for field work, OIG ranked countries by volume of contracting and
compared this ranking to each country's tier in the Department's 2009 Trafficking
in Persons Report. Tier I includes countries whose governments comply fully with
minimum standards of the Trafficking Victims Protection Act of2000 (TVPA) and

I The Bureau of Diplomatic Security Baghdad Embassy Security Force, Performance Audit, MERO-A-10-05 , due to 

be issued in January 20 ]0. 

Z The MERO area of responsibility includes all countries under the Bureau of South and Central Asian Affairs, all 

countries under the Bureau of Near Eastern Affairs, the Palestin ian Territories, and Turkey. 

                                          -3­

thus pose the lowest risk of trafficking problems. Tier 2 countries (including
Afghanistan, Israel , Jordan, and Oman) do not comply w ith TVPA minimum
standards but are making significant efforts to bring themselves into compliance.
The Watch List for Tier 2 includes countries in most of North Africa, the Persian
Gulf, Central Asia, and South Asia, not in compliance with TVPA that have
committed to improve, but pose a greater ri sk due to the number of victims and/or
lack of evidence of im provement. Tier 3 countries (including Saudi Arabia,
Kuwait, and Syria) pose the highest risk of trafficking because these governments
do not comply with minimum standards and are not making signifi cant efforts to
do so. Since no country in the MERO region is in full compliance with TVPA,
OIG is focu sing its study on MERO countries outside of Iraq, Pakistan,
Afghanistan that have received the most Department contract funding for the last
three fi scal years while receiving proportionally little funding for trafficking
prevention programs.

In early 20 I 0, OIG plans to audit a representati ve sample of contracts and conduct
site visits through the followi ng Embassies: I) Abu Dhabi, United Arab Emirates;
2) Amman, Jordan ; 3) Beirut, Lebanon ; 4) Damascus, Syria; 5) Kuwait City,
Kuwa it; 6) Muscat, Oman; 7) Riyadh, Saudi Arabia; and 8) Te l Aviv, Israel.
OIG's Office of Investigations will provide an agent to work w ith the MERO
teams on this audit as a law enforcement advisor. In addition, during the year OIG
issued a questionnaire by cable to collect data from contracting personnel at all
mi ssions in MERO's area of responsibility regarding contractor adherence to, and
Department enforcement of, U.S. Government and Department acquisition
regulations related to preventing trafficking in persons.

Based upon TVPRA Section 232 requiremen ts and work conducted by the MERO
survey team, the objectives for the audit phase of this review are to detenmine:

   • 	 Whether Department-funded contractors or subcontractors are engaged,
       knowingly or unknowingly, in acts related to trafficking in persons;
   • 	 Whether U.S. Embassies are effectively monitoring Department-funded
       contracts to ve rify that contractors and subcontractors are not engaged in
      trafficking in persons activities; and
   • 	 Whether U.S. Embassies are following Department guidelines and policies
       to prevent trafficking and whether these guidelines and policies are adequate
       to prevent trafficking.
                                          -4­

MERO is scheduling mUltiple rounds of fieldwork between February and May and
will report its findings in the summer of2010. Once completed, MERO will be
able to provide reasonable conclusions concerning Depaltment compliance with
TVPRA and possible recommendations for improving Department policies and
procedures to prevent trafficking in persons among its contractors and
subcontractors.

Office of Audits

Due to resource constraints, OIG initiated its FY 20 I 0 study of contractor
involvement in trafficking in persons within MERO's area of respons ibility.
However, TVPRA-mandated work for FY 20 II and FY 20 12 may encompass
countries in the Office of Audits' larger area of respons ibility in Southeast Asia,
Sub-Saharan AtTica, or other regions particularly vulnerable to trafficking in
persons.

Office of Inspections

OIG included trafficking in persons among its areas of emphasis for all Embassy
and consulate inspections conducted in FY 2010. Inspectors were req uired to place
special emphasis on detecting potential trafficking in persons activity during
inspections and to address the issue specifically in inspection reports. During the
fall round of inspections , teams completed "area of emphasis" questionnaires
regarding contracted labor based on findings and interviews at the inspected
missions. Questionnaire items related to trafficking in persons were also added to
data collection instruments for the political and economic/commercial sections of
each mission.

During s ite v isits, inspection teams typically reviewed a sample of contracts at
each facility for the inclusion of FAR clause 52.222-50. However, depending on
the size of the mission and team resources, some teams were able to rev iew every
contract at their assigned mission and examine the issue in greater depth. For
example, the inspection team for Riyadh took the additional step of interviewing
the general services officer, regional security officer, and locally employed staff
about contractors' behavior with respect to trafficking in persons. This yielded
anecdotal evidence of some behavior that could be classified as labor trafficking
(e.g. withholding passports, garnishing wages, and summary dismissal) and is the
basis for some formal recommendations to be detailed in the forthcoming
                                         -5­

inspection report for Embassy Riyadh. Inquiries into this area of emphasis on
other inspections have yielded similar findings. OIG currently has several reports
in draft that will provide greater detail. OIG' s Office of Inspections will continue
to refine inspection procedures to meet its TVPRA Section 232 obligations in 20 I0
and beyond.

Office of Investigations

During the year, the Office of Investigations actively followed up on investigative
leads and referral s related to trafficking in persons as appropriate. The Office
opened one investigation regarding possible trafficking violations based on
information received from the Federal Bureau of Investigation. The Office of
Investigations continues to look into trafficking and sexual exploitation allegations
when they surface as part of large-scale, ongoing investigations conducted
worldwide. Investigations involvi ng violations of the Foreign Corrupt Practices
Act are also being pursued, as some trafficking in persons-related all egations are
covered by this Act. Finally, as noted above, the Office of Investigations will
provide a law enforcement liaison to M ERO during its TVPA-related reviews and
site visits scheduled from February to April 20 I O.


                                       Sincerely,



                                       Harold W. Geisel
                                       Deputy Inspector General
